CERTIFICATE OF SERVICE
NO. TBD
Michelle Carter
Petitioner(s)
v.
Commonwealth of Massachusetts
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
MICHELLE CARTER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Shoshana E. Stern
Bristol County District Attorney’s Office
888 Purchase Street
New Bedford, MA 02740
(508) 997-0711
shoshana.e.stern@state.ma.us
Counsel for Commonwealth of Massachusetts

Lucas DeDeus

July 8, 2019
SCP Tracking: Marx-24 Federal Street, 4th Floor-Cover White

